          United States Government
   National Labor Relations Board
              Office of Inspector General




SEMIANNUAL

REPORT
April 1, 2011 – September 30, 2011




                    NLRB Semiannual report   1
TABLE OF
contents
Executive Summary..........................................................................1

Agency Profile...................................................................................2

Office of Inspector General...........................................................4

Audit Program...................................................................................5

Investigations Program....................................................................9

Legislation, Regulations and Policy............................................. 11

Liaison Activities............................................................................ 12

Information Required by the Act................................................ 13

Reports by Subject Matter............................................................ 14

Appendix......................................................................................... 17
EXECUTIVE
SUMMARY

I
     hereby submit this Semiannual Report for the period April 1, 2011 –
     September 30, 2011. This report summarizes the major activities and
     accomplishments of the Office of Inspector General of the National
Labor Relations Board and its submission is in accordance with the Inspector
General Act of 1978, as amended. Section 5 of the Inspector General Act
requires that the Chairman transmit this report to the appropriate committees
or subcommittees of the Congress within 30 days of its receipt.
In the audit program, the Office of Inspector General issued two audit
reports, one inspection report, and completed the quality system review
for the audit organization of the Office of Inspector General, Equal
Employment Opportunity Commission. As a result of the inspection, we
identified $44,274 questioned costs. In the investigation program, the Office
of Inspector General processed 145 contacts, initiated 11 cases, and closed
6 cases. Our investigative efforts resulted in an indictment, a removal,
and a resignation. One case was referred for prosecution.
I appreciate the support of all Agency employees in achieving the
accomplishments set forth in this report.




                                            David Berry
                                            Inspector General
                                            October 31, 2011




                                             NLRB Semiannual report             1
AGENCY
profile
    The National Labor Relations Board (NLRB or Agency) is an independent
    Federal agency established in 1935 to administer the National Labor
    Relations Act. The National Labor Relations Act is the principal labor relations
    law of the United States, and its provisions generally apply to private
    sector enterprises engaged in, or to activities affecting, interstate commerce.
    NLRB jurisdiction includes the U.S. Postal Service (other government entities,
    railroads, and airlines are not within NLRB’s jurisdiction).


The NLRB seeks to serve the public
interest by reducing interruptions
in commerce caused by industrial
strife. It does this by providing
orderly processes for protecting
and implementing the respective
rights of employees, employers,
and unions in their relations with
one another. The NLRB has two
principal functions: (1) to determine
and implement, through secret ballot
elections, the free democratic choice
by employees as to whether they                judicial body in deciding cases
wish to be represented by a union              on formal records. The General
in dealing with their employers and,           Counsel investigates and prosecutes
if so, by which union; and (2) to              unfair labor practices before
prevent and remedy unlawful acts,              administrative law judges, whose
called unfair labor practices, by              decisions may be appealed to the
either employers or unions.                    Board, and, on behalf of the Board,
NLRB authority is divided by law               conducts secret ballot elections to
and delegation. The five-member                determine whether employees wish
Board primarily acts as a quasi-               to be represented by a union.

2    NLRB Semiannual report
                                                                      Left to right:
                                                         Brian Hayes, Craig Becker,
                                                       Chairman Wilma B. Liebman,
                                                              Mark Gaston Pearce.




The Board consists of the Chairman     During this reporting period, the
and four Members who are               NLRB operated under a Continuing
appointed by the President with the    Resolution that provided funding at
advice and consent of the Senate.      a level of $282,833,200.
Board Members serve staggered          NLRB Headquarters is located at
terms of 5 years each. The General     1099 14th Street, NW, Washington,
Counsel is also appointed by the       DC. In addition to the Headquarters
President with the advice and          building, employees are located
consent of the Senate and serves a     in 51 field offices throughout the
term of 4 years.                       country. Three satellite offices for
For this reporting period, the Board   the administrative law judges are
consisted of Chairman Wilma            located in Atlanta, San Francisco,
B. Liebman and Members Craig           and New York City. Since October
Becker, Brian Hayes, and Mark          2, 2000, field offices have included
Gaston Pearce. On August 27, 2011,     32 Regional Offices, 16 Resident
Chairman Liebman’s term ended.         Offices, and 3 Subregional Offices.
The President designated Member        Additional information about
Pearce to succeed Member Liebman       the NLRB can be found at
as Chairman. Acting General            www.NLRB.gov.
Counsel Lafe Solomon continued
to serve in that position during the
reporting period.

                                           NLRB Semiannual report                      3
OFFICE OF
INSPECTOR GENERAL
    NLRB established the Office of Inspector General (OIG) pursuant to the
    1988 amendments to the Inspector General Act of 1978 (IG Act).



Resources
The OIG received an allocation of
$1,082,800 for FY 2011 operations,
of which $221,900 was for contract
services. In addition to the Inspector
General, the OIG consists of
a Counsel/Assistant Inspector
General for Investigations, an
Assistant Inspector General for
Audits, three auditors, and a staff
assistant.




4    NLRB Semiannual report
AUDIT
program
   The Inspector General is to provide policy direction for and is to conduct,
   supervise, and coordinate audits relating to program operations of
   the Agency. During the reporting period, the OIG issued two audit
   reports and one inspection report. The OIG also completed the quality
   system review for the audit organization of the Office of Inspector
   General, Equal Employment Opportunity Commission. As a result of the
   inspection, we identified $44,274 in questioned costs.



Reports Issued                             To ensure a complete assessment
We issued Audit Report OIG-                of the Region’s productivity, we
AMR-64-11-02, Case Processing              compiled and summarized data
Costs, on April 7, 2011. The audit         related to the resolution of cases
was conducted to determine case            and staffing of each Region; and we
processing costs by the Regional           categorized the cases by the distance
Offices and identify potential cost        of the charging party from the
savings. The scope of our review was       Regional Office.
all cases that were processed and all      Our analysis of this data
expenses that occurred in FY 2009.         demonstrated that Regions with
We reviewed the operations of the          larger caseloads generally achieve
offices in the Regions and analyzed        an efficiency that is not obtained
the Agency’s expenses to allocate          by Regions with smaller caseloads.
the expenses to specific Regions.          We also found that Regions with
We also assessed the productivity of       multiple offices and more than
each Region by using the Agency’s          1,000 active cases generally had a
method of assigning cases a value          lower cost per production unit than
based upon the “impact analysis”           Regions with a single office.
category. To compare Regions, we           We recommended that the Division
divided the operating expenses by          of Operations-Management achieve
the total case value to determine a        greater efficiencies in its Regional
“production unit” cost.                    operations by consolidating offices

                                                NLRB Semiannual report           5
and eliminating positions in              could be improved upon. These
overstaffed Regions by attrition.         areas primarily relate to documenting
We also recommended relocating            procedures, monitoring transactions,
offices in high rent urban office         and the use of priority vendors.
districts to locations that offer lower   We made five recommendations that
lease costs when the relocation will      we believe will assist in managing
result in cost savings.                   the purchase card program and
The Division of Operations-               strengthen its internal controls.
Management commented that                 Management provided comments
the Acting General Counsel is             to the draft report that generally
committed to ensuring that the            acknowledged the findings and
Regional Office structure meets           recommendations. Management,
future case processing needs and          however, did not concur with
is as efficient as possible. The          our finding regarding training
comments also stated that they did        of card holders and approving
not believe that offices should be        officials. Management disagreed
consolidated based upon case intake       with our recommendation that the
alone, but that they should also          Acquisitions Management Branch
consider staffing levels, travel costs,   coordinate with the Facilities
and fluctuation in case intake.           and Property Branch to provide
We issued Audit Report OIG-               guidance to purchase card holders
AMR-65-11-03, Purchase Cards,             related to maintaining records for
on September 30, 2011. This               and disposition of non-consumable
audit was conducted to determine          property purchases.
whether the NLRB’s purchase card          We issued Inspection Report
program was operated in accordance        No. OIG-INS-62-11-03, Transit
with applicable laws, regulations,        Subsidy, on June 29, 2011. The
and Agency policies; and whether          inspection was conducted to
controls were sufficient to prevent       evaluate the controls over the
or detect waste, fraud, and abuse.        NLRB’s transit subsidy program.
Our scope was purchase card activity      The scope of the inspection was
during FY 2010.                           the NLRB’s transit subsidy program
Overall, the NLRB has a purchase          at Headquarters, to include transit
card program that streamlines the         subsidy transactions during FY
acquisition process for goods and         2010 and participants in the transit
services while providing controls         subsidy program who separated
that are sufficient to prevent fraud      from the Agency between April 1,
and abuse. We did, however, find          2009 and September 30, 2010.
areas of administrative controls that


6   NLRB Semiannual report
When we reviewed the applications,       the Agency’s transit subsidy benefit
we found that (1) the Agency did not     program after separation. We also
maintain applications as required or     identified $4,311 in transit subsidy
employees were not submitting the        benefits that were paid to individuals
application; and (2) the applications    who were not eligible to participate
that were available for review did       in the transit subsidy or who were
not always reflect the current benefit   required to, but did not, return
that an employee was receiving.          unused transit subsidy benefits after
As a result of not having all the        separation form the NLRB.
applications available for review and    We completed the Quality
allowing transit subsidy participants    System Review (peer review)
to receive a benefit greater than        for the audit organization of the
that stated on the application, we       Office of Inspector General,
identified $39,963 in unsupported        Equal Employment Opportunity
costs for FY 2010.                       Commission. Federal audit
We also found that the Agency did        organization can receive a rating
not have an adequate process to          of pass, pass with deficiencies, or
remove former employees from the         fail. Our report stated that the
transit subsidy program. Between         Office of Inspector General,
April 1, 2009 and September 30,          Equal Employment Opportunity
2010, we found that 31 of those          Commission, received a rating
employees were not removed from          of pass.


                                             NLRB Semiannual report            7
Audit Follow-up                      Management implemented one of
Agreed upon actions were not         the six recommendations made in
completed within 1 year on seven     the report.
audit reports.                       Official Time for Union
Audit of the NLRB Fiscal Year        Activities, OIG-AMR-63,
2006 Financial Statements, OIG-      was issued on December 11,
F-11-07-01, was issued on December   2009, and we reached agreement
14, 2006, and we reached agreement   with management on that date.
with management on June 14, 2007.    Management implemented one
One recommendation remains open.     of the four recommendations
                                     made in the report.
Continuity of Operations,
OIG-AMR-55-07-03, was                Financial Remedies and Other
issued on September 18, 2007,        Settlement Terms, OIG-AMR-
and we reached agreement with        63-10-02, was issued on September
management on that date. One of      10, 2010, and we reached agreement
the three recommendations has        with management on that date.
been implemented.                    Management implemented one of
                                     the three recommendations made
Audit of the NLRB Fiscal Year
                                     in the report.
2007 Financial Statements,
OIG-F-12-08-01, was issued on        Audit of the NLRB Fiscal Year
December 17, 2007, and we reached    2009 Financial Statements,
agreement with management            OIG-F-14-10-01, was issued on
on that date. The final open         December 11, 2009. We did not
recommendation was implemented       reach agreement with management
during this reporting period.        on a recommendation to deobligate
                                     $250,000 of postage advance from
Office of the Chief Information
                                     FY 2009 funds and re-obligate the
Officer Procurement Functions,
                                     postage advance using FY 2010
OIG-AMR-57-08-01, was issued
                                     funds. During this reporting period,
on March 14, 2008, and we reached
                                     we closed the recommendation.
agreement with management
on that date. Six of the seven
recommendations have been
implemented.
Laptop Computer Accountability
and Security, OIG-AMR-59-09-
01, was issued on February 27,
2009, and we reached agreement
with management on that date.


8   NLRB Semiannual report
INVESTIGATIONS
PROGRAM
   The Inspector General is to provide policy direction for and is to conduct,
   supervise, and coordinate investigations relating to the programs and
   operations of the Agency. The investigations resulted in an indictment,
   a removal, and a resignation. A case was also referred for prosecution.



 Case Workload       Contacts Processed
                                              another. The employee resigned
                                              during the course of the
 Open                                         investigation. OIG-I-462
 (4/1/2011)
               11 Received             145
                                             • Investigated and substantiated
                   Initiated
 Initiated     11 Investigation        2       an allegation that an employee
                                               in an attorney position was not
                   Opened Case —
                               ­­­
                                               authorized to practice law and
 Closed        6   Referred to         0
                   Agency                      provided false statements to
                                               the NLRB regarding that status.
 Open              Non-Investigative
               16 Disposition          143     This matter was referred for
 (9/30/2011)
                                               prosecution. The matter was also
                                               referred to the employee’s State
Investigative Highlights                       Bar. The employee resigned as a
• Investigated a matter involving              result of a separate proceeding
  fraud upon an outside entity and             that did not involve the OIG.
  false statements by an employee.             OIG-I-456
  In a prior reporting period, the
                                             • Investigated and substantiated
  employee resigned. During this
                                               an allegation that an employee
  reporting period, the employee was
                                               improperly released non-public
  indicted in the Eastern District of
                                               procurement information. In
  Virginia on nine counts of wire
                                               a prior reporting period, an
  fraud. OIG-I-440
                                               investigative report was issued.
• Investigated and substantiated               During this reporting period,
  an allegation that an employee               the employee was removed from
  misappropriated property of                  employment. OIG-I-443

                                                 NLRB Semiannual report           9
• Investigated and substantiated       contacts. Hotline contacts are
  allegations involving abuse of       analyzed to determine if further
  managerial discretion and false      inquiry or action is warranted.
  statements by two employees.         During this reporting period, the
  Management officials are in the      OIG received 145 Hotline contacts,
  process of considering what,         of which 16 were telephone calls
  if any, disciplinary action is       or walk-ins and 129 were in writing.
  appropriate. OIG-I-452               Two contacts resulted in the
Hotline                                initiation of an OIG investigation.
Employees and members of the           Most Hotline contacts are from
public with information on fraud,      members of the public seeking help
waste, and abuse are encouraged        on an employment-related problem
to contact the OIG. A log of calls     or issues outside OIG and/or
to a nationwide toll-free number       Agency jurisdiction. As appropriate,
or the office numbers and a log of     the OIG refers those Hotline
mail, e-mail, and facsimile messages   contacts to an NLRB Regional
are maintained. All information        Office; local, state, or Federal
received, regardless of the method     agencies; or private resources to
used, is referred to as Hotline        provide assistance.


10 NLRB Semiannual report
LEGISLATION, REGULATIONS
AND POLICY
   The responsibilities and duties of an OIG include reviewing existing
   and proposed legislation and regulations relating to the programs and
   operations of its agency and making recommendations in the semiannual
   reports concerning the impact of such legislation or regulations on
   the economy and efficiency in the administration of programs and
   operations administered or financed by the agency or the prevention
   and detection of fraud and abuse in such programs and operations.


Legislation                             • H.R. 2854, Employer Free
During this reporting period, there       Choice Act
were 13 legislative proposals that      • H.R. 2926, National Labor
would amend the National Labor            Relations Reorganization Act
Relations Act and impact the pro-         of 2011
grams and operations of the Agency:     • H.R. 2978, Protecting American
• H.R. 1976, Job Protection Act           Jobs Act
• H.R. 2040, National Right-to-         • S. 964, Job Protection Act
  Work Act                              • S. 1425, Fair Representation
• H.R. 2118, Would amend the              in Elections Act of 2011
  NLRA with respect to authority        • S. 1523, Protecting Jobs from
  to enjoin State laws that are           Government Interference Act
  preempted by or conflict with         The impact of these proposals on
  such Act                              the NLRB and its programs has
• H.R. 2153, Truth in Employment        been the subject of extensive debate.
  Act of 2011
• H.R. 2335, Tribal Labor
                                        Regulations
                                        The Counsel to the Inspector
  Sovereignty Act of 2011
                                        General is an advisory member
• H.R. 2587, Protecting Jobs from       of the Agency’s Rules Revision
  Government Interference Act           Committee that develops changes to
• H.R. 2833, Employee Workplace         the Agency’s procedural regulations.
  Freedom Act

                                            NLRB Semiannual report 11
LIAISON
ACTIVITIES
   The Inspector General is to recommend policies for, and is to conduct,
   supervise, or coordinate relationships between the Agency and other
   Federal agencies, state and local governmental agencies, and non-
   governmental entities. The Inspector General is to give particular
   regard to the activities of the Comptroller General of the United States.
   Similarly, we encourage OIG staff members to participate in Agency
   programs and activities.


Inspector General                         of the Comptroller General of
Community                                 the United States, as head of the
The Inspector General is a member         Government Accountability Office
of the Council of the Inspectors          (GAO), with a view toward avoiding
General on Integrity and Efficiency.      duplication and ensuring effective
This organization consists of             coordination and cooperation.
Inspectors General at the Federal         Although we had no activity during
Government’s departments and              this reporting period that required
agencies.                                 coordination with the GAO, we did
The Assistant Inspector General           receive a Comptroller General
for Audits, or designated auditors,       Decision regarding the use of FY
participated in the Federal Audit         2010 funds for FY 2011training
Executive Council, Financial              and court reporting expenses. This
Statement Audit Network, and the          decision is the result of a request
Interagency Fraud and Risk Data           made by the OIG following the
Mining Group.                             audit of the FY 2010 financial
                                          statements. The decision stated that
Government                                FY 2010 funds could be used for the
Accountability Office                     court reporting expenses, but not
The IG Act states that each               the training expenses. The citation
Inspector General shall give              for the decision is B-321296.
particular regard to the activities

12 NLRB Semiannual report
INFORMATION
REQUIRED BY THE ACT
Section 5(a)                             management decisions were made
(1), (2), (7) OIG did not identify       during the reporting period.
significant problems, abuses or          (12) There are no significant
deficiencies relating to the             management decisions with which
administration of programs. For the      I am in disagreement.
purpose of this section, we used the
                                         (13) There is no information to
definition of significant as set forth
                                         report under the requirements
in the Federal Managers’ Financial
                                         of section 05(b) of the Federal
Integrity Act.
                                         Financial Management Improvement
(3) Corrective action has been           Act of 1996.
completed on all significant
                                         (14) (15) A peer review of the OIG
recommendations that were
                                         audit program was initiated during
described in the previous
                                         this reporting period, but a report
semiannual reports.
                                         was not issued prior to the end of the
(4) One case was referred to             reporting period. The peer review of
prosecutorial authorities.               the audit program is being conducted
(5) No reports were made to the          by the National Credit Union
Board that information or assistance     Administration OIG. The prior peer
requested by the Inspector General       review of the OIG’s audit program
was unreasonably refused or not          was last completed in February 2009
provided.                                by the Federal Trade Commission’s
                                         OIG. A copy of the peer review
(6) A listing by subject matter is
                                         report is at the appendix. There were
located on page 14.
                                         no recommendations. The OIG’s
(8), (9) One report issued during        investigative program is not subject
this period had questioned costs.        to the peer review requirement.
See Table 1.
                                         (16) The OIG completed a peer
(10) There are no audit reports          review of the Equal Employment
issued before the commencement of        Opportunity Commission OIG’s
the reporting period for which no        audit program. All recommendations
management decision has been made        from the prior peer review had been
by the end of the reporting period.      implemented.
(11) No significant revised

                                             NLRB Semiannual report 13
REPORTS BY
SUBJECT MATTER
                                                                  Funds To
Subject Matter           Questioned   Unsupported   Ineligible
                                                                 Be Put To
and Title                  Costs         Costs        Costs
                                                                 Better Use

Field Investigations
Case Processing Costs        0            0             0            0
OIG-AMR-64-11-02

General Administration
Purchase Cards               0            0             0            0
OIG-AMR-65-11-03


General Administrative
Transit Subsidy           $44,274      $39,963          0            0
OIG-INS-62-11-03




14 NLRB Semiannual report
Table 1. Reports With                                         Dollar Value
                                       Number of
Questioned Costs                        Reports       Questioned     Unsupported
                                                        Costs           Costs
A. For which no management
  decision has been made by the           1           $915,374               0
  commencement of the period
B. Which were issued during
   the reporting period
                                          1            $44,274         $39,963

Subtotals (A+B)                           2           $959,648         $39,963
C. For which a management decision
  was made during the reporting           2           $959,648         $39,963
  period

(i) Dollar value of disallowed costs      2            $43,311               0
(ii) Dollar value of costs not
      disallowed
                                          2           $916,337         $39,963
D. For which no management
  decision has been made by the           0               0                  0
  end of the reporting period

Reports for which no management
decision was made within six months       0               0                  0
of issuance




                                                   NLRB Semiannual report 15
Table 2. Reports with
Recommendations that                    Number of   Funds To Be Put
                                         Reports     To Better Use
Funds be Put to Better Use
A. For which no management
   decision has been made by the           1          $915,374
   commencement of the period

B. Which were issued during the
   reporting period
                                           0              0

Subtotals (A+B)                            1          $915,374
C. For which a management decision
   was made during the reporting           1          $915,374
   period

(i) Dollar value of recommendations
    that were agreed to by management
                                           1           $39,000

(ii) Dollar value of recommendations
     that were not agreed to by            1          $876,374
     management

D. For which no management decision
   has been made by the end of the         0              0
   reporting period

Reports for which no management
decision was made within six months        0              0
of issuance




16 NLRB Semiannual report
Appendix




           NLRB Semiannual report 17
18 NLRB Semiannual report
 Office of Inspector General
National Labor Relations Board
 1099 14th Street, NW, Suite 9820
     Washington, DC 20570


         (202) 273-1960
         (800) 736-2983
    OIGHOTLINE@nlrb.gov
       Fax (202) 273-2344
1099 14th Street, N.W.
Washington, D.C. 20570
